  Office of The inspector general
Semiannual Report to Congress
   april 1, 2007 - september 30, 2007




            Kent r. nilsson
          Inspector general
Federal communications commission
      Headquarters building

        Portals II building
memorandum




  Memorandum to Chairman, Federal Communications Commission
               Table of Contents
                 Introduction                                      3


                 OIG Management Activities                         5


                       Office Staffing                             6


                       Office Modernization                        7


                       Internship Program                          8


                       Legislative and Policy Matters              8


                 Audit Activities                                 11


                       Financial Audits                           12


                       Performance Audits                         13


                       Universal Service Fund (USF) Oversight     16


                 Investigations                                   21


                       Activity During this Period                23


                       Significant Investigative Case Summaries   24


                       OIG Hotline                                28


                 Reporting Requirements of the
                 Inspector General Act                            31


                       OIG Reports with Questioned Costs          34


                       OIG Reports with Recommendations that      35
                       Funds Be Put To Better Use



Table of Contents - September 2007   2
                                                  introduction
The Federal Communications Commis-            pliance with the requirements of the In-

sion (“FCC”) is an independent regula-        spectors General Act and assisting the

tory agency, with authority delegated         Chairman in his continuing efforts to

by Congress to regulate interstate and        improve the effectiveness and efficiency

foreign communications by radio, tele-        of the Federal Communications Com-

vision, wire, satellite and cable.    The     mission. The Inspector General (“IG”),

FCC’s jurisdiction covers the fifty States,   Kent R. Nilsson, reports directly to the

the District of Columbia, the Common-         Chairman. The IG’s staff consists of ac-

wealth of Puerto Rico and all U.S. terri-     countants,   attorneys, auditors, econo-

tories.                                       mists, and investigators.    In addition,

                                              the staff is currently supplemented by

The FCC consists of a Chairman and            two professionals on detail to OIG from

four Commissioners, who are appointed         other Commission offices.       Principal

by the President and confirmed by the         assistants to the IG are: David L. Hunt,

United States Senate. Kevin J. Martin         Assistant Inspector General (“AIG”) for

serves as Chairman. Michael J. Copps,         Investigations/General Counsel; Cur-

Jonathan S. Adelstein, Deborah Taylor         tis Hagan, AIG for Audits; William K.

Tate and Robert M. McDowell serve as          Garay, AIG for Universal Service Fund

Commissioners. Most of the FCC’s em-          Oversight; Thomas Cline, AIG for Policy

ployees are located in Washington, D.C.       and Planning; and Harold Shrewsberry,

at the Portals II building, which is locat-   AIG for Management.

ed at 445 12th St., S.W., Washington, D.C.

Field offices and resident agents are lo-     This semiannual report includes the ma-

cated throughout the United States.           jor accomplishments and activities of the

                                              OIG from April 1, 2007 through Septem-

The Office of the Inspector General           ber 30, 2007, as well as relevant informa-

(“OIG”) is dedicated to ensuring com-         tion on the IG’s goals and future plans.




                                                                       Introduction - September 2007   3
OIG Management
    Activities
           staffing

     office modernization

     internship program

  legislative & Policy matters
             OIG Management Activities
                        Office Staffing                     As we have previously reported, the IG

                                                            has requested additional staff positions

               Additional personnel, as well as fund-       to support and perform quality assurance

               ing to support the work of the Office, are   for audits in the Universal Service Fund

               essential to meeting the objectives of the   (USF) area in prior OIG fiscal year budget

               Inspector General Act and fulfilling the     requests. These resources, however, have

               responsibilities of the Inspector General    not been provided through the legislative

               that are contained in section 0.13 of the    process although they were recommended

               Commission’s rules. So far, it has been      by the Chairman and included in the Pres-

               possible to make progress because of         ident’s budget. For FY2008, the Inspector

               the willingness of the Chairman and his      General requested more than $21.4 mil-

               staff to support the work of this Office.    lion and 23 additional FTE staff positions

               When the IG was appointed in January         in the President’s 2008 budget request.

               2006, the Office had 10 professional em-     That request includes additional auditors,

               ployees. There are now 20 professionals      investigators, attorneys and information

               and 2 support personnel and vacancy an-      technology specialists to address dra-

               nouncements have been posted to fill 3       matic growth in investigative activities.

               additional positions. With each addition,    It is essential that these resource re-

               the professional training, experience and    quirements be approved if this Of-

               personal commitment to improving the         fice is to address, successfully, the

               administration of the Commission’s pro-      expansions    in   work     requirements

               grams and eliminating fraud, waste and       that continue to confront this Office.

               abuse has increased. Additional person-

               nel, however, are urgently needed to meet    Our staff consists of well-trained, sea-

               the increasing demands that are being        soned professionals, most of whom have

               placed on this Office as the Commission’s    one or more professional certifications.

               programs increase in size and complexity.    We support the efforts of our staff to ex-


6   OIG Management Activities - September 2007
              OIG Management Activities
pand their bodies of knowledge and pro-       nual reports that the IG had decided to

fessional recognition, and the Chairman modernize the Office to insure that the

has funded examination preparation for OIG will be prepared to manage and pro-

the Certified Public Accountant and Cer-      cess the volume of activity anticipated for

tified Information System Security Pro-       the Universal Service Fund (“USF”), finan-

fessional designations as well as other       cial statements and information technol-

professional training programs.     In our ogy audits of the FCC and its external pro-

continuing efforts to increase the exper-     gram segments, financial controls audits

tise of our audits and investigative staffs, of the FCC and its external program seg-

members of this Office have also attended ments, and a steadily increasing volume of

training at the Inspector General Crimi-      complex investigations. We have contin-

nal Investigative Academy, other Federal      ued our modernization program with the

Inspectors General training classes, mas-     purchase of secure E-mail software for the

ter’s level classes at colleges and univer-   Assistant Inspector General for Investiga-

sities, and technical seminars. In addi-      tions and his staff. The OIG is scheduled

tion, we have leveraged our expertise in to receive new Blackberry wireless de-

accounting and auditing to revitalize the vices (“Blackberries”) next month. These

FCC’s professional training for the Com-      new Blackberries should enhance the abil-

mission’s Certified Public Accountants, ity of the professional staff to maintain

thereby contributing to improving the         internet connectivity as well as receiving

quality of professional education available   enhanced voice communication services.

to all of the Commission’s accountants. In addition, the IG intends to acquire, and

                                              deploy, an IG knowledge system that will

                                              greatly improve the OIG’s ability to man-

    Office Modernization                      age audits, inspections, and investiga-

                                              tions on site as well as in remote locations.

We have reported in the last two semian-


                                                          OIG Management Activities - September 2007   7
             OIG Management Activities
                       Internship program                   formance that, in part, has reflected their

                                                            youth, exuberance, and special skills.

               The OIG welcomes college interns during

               the fall, spring and summer semesters.

               Most of these students take their intern-               legislative &
               ships for credit. Recent interns have come            policy matters
               from schools across the country includ-

               ing American University, Arizona State Pursuant to section 4(a)(2) of the Inspector

               University, DePauw University, George-       General Act of 1978 (IG Act), 5 U.S.C.A.

               town     University,   Hamilton   College,   App. § 4(a)(2)    as amended, our Office

               James Madison University, Long Island monitors and reviews existing and pro-

               University, North Carolina State Univer-     posed legislation and regulatory proposals

               sity, Purdue University, the University for their potential impact on the OIG and

               of California at Berkeley, the University    the FCC’s programs and operations. Spe-

               of California at Davis, the University of cifically, we perform this activity to evalu-

               Maryland Law School, the University of ate their potential for encouraging econo-

               North Carolina, and Xavier University. my and efficiency while helping to reduce

                                                            fraud, waste, abuse, and mismanagement.

               These internships have proven to be re-

               warding experiences for all participants.    During this reporting period, the Office

               Students leave with a good understand-       monitored legislative activities affecting

               ing of how a government agency oper-         the activities of the OIG and the FCC. Also

               ates, and they have the opportunity to       during this period, this Office monitored

               encounter challenges while enjoying the      legislation and legislatively related propos-

               rewards that can come from public ser-       als which may, directly or indirectly, affect

               vice.    In turn, the Office has benefited   the ability of IGs to function independent-

               from the students’ excellent work per-       ly and objectively. We make no recom-


8   OIG Management Activities - September 2007
              OIG Management Activities
mendations concerning these legislative     In addition, during this reporting period,

initiatives and proposals in this report.   we reviewed and commented on agency di-

                                            rectives for security, anti-fraud measures,

In addition, the OIG continuously monitors Prompt Payment Act compliance, sub-

FCC policy development and provides in-     scriptions management, Commission reg-

put as appropriate. In particular, the OIG istration system procedures and the FCC’s

has commented on policy and procedural      Information Technology Strategic Plan.

matters that directly relate to audit and

oversight of agency functions and pro-

grams, comments that have been sought

and considered by the FCC’s management.




                                                       OIG Management Activities - September 2007   9
audit Activities

          financial audits

        performance audits

universal service fund (USF) oversight
              audit activities
                                               financial audits

                 Financial audits provide reasonable as-       ment auditing standards issued by the

                 surance as to whether the agency’s finan-     Comptroller General of the United States.

                 cial statements are presented fairly in all   Under a contract supervised by the In-

                 material respects. Other objectives of fi-    spector General, Clifton Gunderson LLP

                 nancial audits are assessments of the in-     (“CG-LLP”), an independent certified

                 ternal controls over transaction process-     public accounting firm, is performing the

                 ing for accurate financial reporting and      audit of the FCC’s FY 2007 consolidated

                 assessment of compliance with applicable      financial statements in accordance with

                 laws and regulations.                         the aforestated standards; OMB Bulletin

                                                               No. 07-04, Audit Requirements for Feder-

                  Audit of the Federal Communications          al Financial Statement, amended; and ap-

                  Commission Fiscal Year 2007 Consoli-         plicable sections of the U.S. Government

                        dated Financial Statements             Accountability    Office   (“GAO”)/Presi-

                                                               dent’s Council on Integrity & Efficiency

                 In accordance with the Accountability of      (“PCIE”) Financial Audit Manual.

                 Tax Dollars Act of 2002, the FCC prepared

                 consolidated financial statements for the     This audit is currently in progress.

                 2007 fiscal year in accordance with Office

                 of Management and Budget (“OMB”)

                 Circular A-136, Financial Reporting Re-

                 quirements, and subjected them to au-

                 dit. The Chief Financial Officers Act of

                 1990 (“CFO Act”), as amended, requires

                 the FCC Inspector General, or an inde-

                 pendent external auditor selected by the

                 Inspector General, to audit FCC financial

                 statements in accordance with govern-
12   Audit Activities - September 2007
                                               audit activities
                            Performance audits

Performance audits are systematic exam-        is always an inherent risk of fraud and

inations that are conducted to assess the      improper payments in the absence of ef-

performance of a government program,           fective controls and close, and continu-

activity, or function so that corrective ac-   ing, oversight.    The Inspector General

tion can be taken, if appropriate. Perfor-     initiated an audit program in fiscal year

mance audits include audits of govern-         2007 and audits of the TRS program are

ment contracts and grants with private         currently under way. Preliminary results

sector organizations, as well as govern-       from these audits point to a need for re-

ment and non-profit organizations that         curring audits of TRS providers. Subse-

determine compliance with contractual          quent to this reporting period, we report-

terms, Federal Acquisition Regulations         ed in the Management Challenges letter

(“FAR”), and internal contractual admin-       to Chairman Martin (October 16, 2007)

istration.                                     that improving fund administration and

                                               the procedures for setting accurate reim-

   Telecommunications Relay Service            bursement rates for service are signifi-

                                               cant management challenges for the FCC.

The Telecommunications Relay Service           This management challenge suggests a

(“TRS”) Fund compensates communica-            continuing need for follow-up audits of

tions service providers for the costs of       the TRS administrator and of service pro-

providing interstate telephone transmis-       viders.

sion services that enable a person with a                        Auctions

hearing, or speech, disability to use such

services to communicate with a person          Since 1994, the Commission has conduct-

without hearing or speech disabilities.        ed auctions of the nation’s electromag-

Distributions from the fund have grown         netic spectrum that have resulted in total

substantially in recent years and there        receipts of almost $60 billion. The pro-


                                                                     Audit Activities - September 2007   13
              audit activities
                 cesses and controls for collecting auctions   over the conduct of spectrum auctions.

                 payments in effect during fiscal year 2006    That audit is in progress.

                 were audited to determine whether auc-

                 tions payments that were due to the Com-

                 mission were being properly collected.          Purchase and Travelers Credit Card

                                                                               Programs

                 We contracted with KPMG LLP to au-

                 dit the FCC’s auction process. The audit      The purchase card and travel card pro-

                 program contained two phases. The first       grams funded by the FCC Auction Fund

                 phase was to conduct an audit of selected     were audited by Clifton Gunderson LLP,

                 manual and automated controls over the        under contract to OIG, to determine

                 auctions payment collection process. The      whether the programs are operated in ac-

                 second phase of the audit testing con-        cordance with applicable requirements,

                 sisted of a statistical sample of auctions    and to assess the effectiveness of internal

                 payments to determine if payments were        controls over those programs.

                 properly collected by the FCC. While no

                 discrepancies were found in the collection    The auditors found deficiencies in the de-

                 of payments from, or refunds to, the win-     sign and operation of controls over the

                 ning bidders and non-winning bidders,         purchase card program and minor weak-

                 five findings were identified in the FCC’s    nesses were found in the operational con-

                 management, operational, and technical        trols over the travel card program. The

                 controls that apply to those processes.       FCC’s management has already imple-

                 FCC management concurred with the au-         mented corrective action to address these

                 dit findings and is addressing the weak-      findings.

                 nesses that were identified.



                 This audit was then followed with an

                 audit of the FCC’s management controls
14   Audit Activities - September 2007
                                            audit activities
       Universal Licensing System             FY 2007 Federal Information Security

                                             Management Act (FISMA) Evaluation

The Universal Licensing System (“ULS”)                and Risk Assessment

is the consolidated database and appli-

cations filing system that is used by the   In accordance with the Federal Informa-

Commission’s Wireless Telecommuni-          tion Security Management Act (“FIS-

cations Bureau to process hundreds of       MA”), the independent certified public

thousands of license applications annu-     accounting firm of Clifton Gunderson,

ally. ULS has simplified the application    L.L.P. (“CG, LLP”), was engaged to

and licensing processes and is intended     evaluate the FCC’s information security

to provide secure, world-wide access        program. CCG, LLP reported on Sep-

through the Internet. An audit of appli-    tember 20, 2007 that the FCC has an es-

cation controls over ULS intake, process-   tablished information security program

ing, storage, and reporting of data was     and has been pro-active in reviewing se-

conducted by KPMG LLP under contract        curity controls and identifying areas that

to the OIG. The effectiveness of the        need to be strengthened. Nonetheless,

Bureau’s management, operational, and       there were findings for which corrective

technical controls for the system was       action was recommended that concern

assessed and a network vulnerability as-    security administration, logical access

sessment was performed. Several defi-       control, change control, and continuity

ciencies were found in the controls over    of operations. None of the weaknesses,

the system, and the auditors made rec-      either individually or collectively, were

ommendations to address those weak-         deemed to be a significant deficiency as

nesses. FCC management concurred            that term has been defined by the U.S.

with the recommendations and is in the      Office of Management and Budget. FCC

process of correcting the deficiencies.     management concurred with the recom-

                                            mendations and is working to address

                                            the deficiencies.
                                                                  Audit Activities - September 2007   15
              audit activities
                              Universal Service Fund (USF) oversight
                 Earlier semiannual reports have included      with the Improper Payments Improve-

                 a section that covers the Office’s efforts    ment Act of 2002, Public Law No. 107-

                 to oversee the Universal Service Fund         300.

                 (“USF”). In the last semiannual report,

                 we stated that this Office was working        As discussed more fully below, these

                 on an unprecedented audit effort of USF       audits have not lessened our concern

                 programs to include the Schools and Li-       about the possibilities for fraud, waste,

                 braries, High Cost, Rural Health Care,        and abuse in the Commission’s USF pro-

                 and Low Income programs as well as            grams as administered by the Universal

                 audits of contributors to the USF fund.       Service Administrative Corporation. As

                 In this section, we provide an update on      a consequence, we continue to remain

                 our oversight activities and on audits be-    committed to meeting our statutory re-

                 ing conducted by other Federal Offices        sponsibilities to provide effective, inde-

                 of Inspector General on our behalf. We        pendent oversight of all aspects of the

                 also summarize significant investigative      USF program. Although we have made

                 activity related to these programs.           progress in achieving the goal of estab-

                                                               lishing a more effective oversight pro-

                 For the first time, all of these programs     gram, we need significant increases in

                 and sources of revenue, have been sub-        audit, investigative, and legal resources

                 ject to random statistical sampling and       to achieve the goal of having a truly ef-

                 attest audits to determine whether these      fective oversight program. Accordingly,

                 programs comply with the Commission’s         we request that Congress approve the

                 rules and regulations. In addition, the       funding requests for this Office that are

                 sampling methodologies and attest au-         before it.

                 dit protocols were also created to initiate

                 an assessment program that is consistent



16   Audit Activities - September 2007
                                              audit activities
  Update on OIG Oversight Activities          to be approximately $210,000,000); High

                                              Cost Fund - 16.6% (statistically estimated

The statistical sample of USF participants    to be approximately $618,000,000); and

resulted in 459 attest audits of USF pro-     Rural Health Care - 20.6% (statistically es-

gram participants for beneficiaries in low    timated to be approximately $4,450,000).

income, schools and libraries, high cost,

and rural health care as well as for con-     An “erroneous payment” is defined by the

tributors to the USF program. These au-       Office of Management and Budget under

dits were performed by public accounting      the Improper Payments Information Act

firms under contract to USAC and under        to be “any payment that should not have

the guidance of the OIG. The audits were      been made or that was made in an incor-

completed in this reporting period and        rect amount under statutory, contractual,

the OIG has completed its initial statisti-   administrative, or other legally appli-

cal analysis of the results of the audits.    cable requirements.     Incorrect amounts

                                              are overpayments and underpayments

OIG’s statistical analysis shows that, in     (including inappropriate denial of pay-

general, the audits indicated compliance      ment or service). An improper payment

with the Commission’s rules, although         includes any payment that was made to

erroneous payment rates exceeded 9%           an ineligible recipient or for an ineligible

in most USF program segments. The au-         service, duplicate payments, payments

dits resulted in the following erroneous      for services not received, and payments

payments rates: Contributors’ payments        that are for the incorrect amount. In ad-

- 5.5% (statistically estimated to be ap-     dition, when an agency’s review is unable

proximately $385, 000,000), Low Income        to discern whether a payment was proper

- 9.5% (statistically estimated to be ap-     as a result of insufficient or lack of doc-

proximately $75, 500,000); Schools and        umentation, this payment must also be

Libraries - 12.9% (statistically estimated    considered an error.”



                                                                    Audit Activities - September 2007   17
              audit activities
                These statistical analyses will improve      proper payments that were made in the

                the application of investigative and au-     Schools and Libraries program. The pro-

                dit resources and yield information to the   cess of attempting to recover these funds

                Commission that will enable it to improve    is under way. Three reports were issued

                the administration of these programs and     in final during the reporting period. An

                further reduce fraud, waste and abuse.       additional report addressing the audit of

                Although this work was completed dur-        Orleans Parish School District in New Or-

                ing this semiannual reporting period, the    leans, Louisiana was issued in draft. The

                OIG reports on the statistical analyses of   auditors were unable to finalize the repot

                this audit effort were issued subsequent     because school officials did not provide

                to this semiannual reporting period.         comments on the draft report. However,

                                                             absent comments from school officials or

                As the audit sampling project moved for-     any other indication that the draft report

                ward, the OIG and USAC continued to          is inaccurate, we recommend that USAC

                review and finalize KPMG’s previous au-      attempt to recover the improper payments

                dits of the Schools and Libraries program.   identified in the draft report. Details on

                To date, more than 100 audits have been      the four reports issued during the report-

                conducted that have identified numerous      ing period are in Table I as follows:

                compliance and control issues, as well as

                more than $70 million of apparently im-                  Audits Conducted


                 Table I: E-rate Audit Reports Issued                                 Potential
                                                                                      Improper
                                   Beneficiary                       Location
                                                                                      Payment
                 Grant Joint Union High School District         Sacramento, CA           $126,753
                 Rio Grande City Consolidated Independent       Rio Grande City,                 0
                 School District                                TX
                 NW-LINKS, Inc.                                 Moorhead, MN               124,149
                 Orleans Parish School District                 New Orleans, LA            570,458
                 Total Potential Improper Payments                                        $821,360



18   Audit Activities - September 2007
                                              audit activities
         by Other Federal OIGs                E-rate Program requirements for pro-

                                              gram funding years 1998 through 2001.

On January 29, 2003, the Inspector General    There were notable short comings, how-

executed a Memorandum of Understand-          ever. For example, BIA did not have an

ing (“MOU”) with the Department of the        approved technology plan for FY 2002

Interior Inspector General (“DOI-IG”).        and beyond, BIA lacked documents to

This MOU was a three-way agreement            substantiate major procurement activi-

among the Commission, DOI-IG, and             ties, and BIA installed eligible services in

USAC for audits of schools and libraries      ineligible buildings. Because of the lack

funded by the Bureau of Indian Affairs        of required documentation, the auditors

(“BIA”) and other universal service sup-      were not able to determine whether BIA

port beneficiaries under the audit cogni-     complied with E-rate Program rules and

zance of DOI-OIG. Under the agreement,        regulations for the competitive procure-

auditors from DOI-OIG performed audits        ment of satellite Internet access services

for FCC-OIG and USAC. In addition to          in the amount of $1,583,482 for funding

audits of schools and libraries, the agree-   year 2000 and $1,382,244 for funding year

ment authorizes the DOI-OIG to consider       2001. The auditors were also not able to

requests for investigative support on a       estimate the cost of the ineligible work

case-by-case basis.   Since its inception,    performed because the firm-fixed price

DOI-OIG has completed several reports         awards did not contain sufficiently de-

under the MOU.                                tailed cost and pricing data to permit the

                                              auditors to calculate the costs of the ser-

The final audit report on BIA’s participa-    vices installed in the ineligible buildings.

tion in the E-rate program was issued on

January 3, 2006. The audit disclosed that     We received USAC’s comments on the

BIA generally complied with several key       BIA final report in September, 2006 and

                                              issued the report in May, 2007. With re-


                                                                    Audit Activities - September 2007   19
              audit activities
                 gard to the unsupported satellite inter-    tigative support to United States Depart-

                 net access services procured in funding     ment of Justice investigations of E-rate

                 year 2000, FCC rules preclude seeking       recipients and service providers. To im-

                 recovery of funding year 2000 funds af-     plement the investigative component of

                 ter June 30, 2006. Therefore, USAC has      this effort, we developed a working rela-

                 been precluded from seeking recovery of     tionship with the Antitrust Division of the

                 any violations for funding year 2000. The   Department of Justice (“DOJ”). The An-

                 limitations period for seeking recovery     titrust Division, in turn, has established a

                 of funding year 2001 improper payments      task force to conduct USF investigations

                 ended on June 30, 2007 with the conse-      that is comprised of attorneys in each of

                 quence that USAC has been directed to       the Antitrust Division’s seven field offices

                 initiate recovery of $1,382,244 of unsup-   and the National Criminal Office. As of

                 ported costs for funding year 2001.         the end of this reporting period, we are

                                                             directly supporting 28 investigations and

                         Support to Investigations           monitoring an additional 5 investigations.

                                                             Please refer to the Investigations section

                 In addition to the audit component of our   of this report for further information.

                 oversight program, we have provided,

                 and continue to provide, audit and inves-




20   Audit Activities - September 2007
investigations

      activity during this period

significant investigative case summaries

              oig hotline
              investigations
                Investigations pursued by this Office are       ulations regarding employee responsibili-

                initiated as a result of allegations received   ties and conduct, Federal criminal or civil

                from several sources. Examples include          law, and other regulations and statutes

                FCC managers and employees who con-             pertaining to the activities of the Commis-

                tact the OIG directly, complaints provided      sion and its regulatees. Investigative find-

                by the OIG hotline, and complaints that         ings may lead to criminal or civil prosecu-

                are received through the U.S. Postal Ser-       tion, or administrative action, or all of the

                vice. Allegations can be, and frequently        foregoing.

                are, made anonymously. Investigations

                may also be predicated on audit or in-          The OIG also receives complaints from

                spection findings of fraud, waste, abuse,       the general public, both private citizens

                corruption, or mismanagement in FCC             and commercial enterprises, about the

                programs or operational segments,         by    manner in which the FCC executes its

                FCC employees, contractors, and/or sub-         programs and conducts its oversight re-

                contractors, and through referrals from         sponsibilities. All complaints are exam-

                other governmental agencies.                    ined to determine whether there is any

                                                                basis for OIG audit, inspection or inves-

                The OIG works directly with Federal crim-       tigative action. If the allegations are not

                inal authorities, either in supporting their    within the jurisdiction of the Inspector

                investigations or in having those agencies      General, the complaint is usually referred

                support this office with resources unavail-     to the appropriate FCC bureau or office

                able within the FCC. Upon receiving an          for response directly to the complain-

                allegation of an administrative, civil, or      ant. The OIG then continues to serve as

                criminal violation, the OIG usually con-        a facilitator with respect to responses to

                ducts a preliminary inquiry to determine        complaints that are outside the jurisdic-

                if an investigation, inspection, or further     tion of this office. Finally, matters may

                inquiry is warranted. Investigations may        be referred to this office for investigative

                involve possible violations of Federal reg-     action from other governmental entities,
22   Investigations - September 2007
                                                  investigations
such as the Government Accountability          vice Fund program of the Commission.

Office, the Office of Special Counsel, and     These efforts led to the successful pros-

various Congressional offices.                 ecution of another criminal E-Rate case in

                                               San Francisco, as described below, and fol-

As reported in previous semiannual re-         lows the criminal trial reported in the pre-

ports, this office has been working to ad-     ceding semi-annual report that detailed

dress an upsurge in cyber crime investi-       the conviction on E-Rate fraud in McAl-

gations. This trend has continued, and         len, Texas.    Described below are sum-

is absorbing substantially more investi-       maries of significant cases investigated

gative resources because of the complex        during the relevant period of this report.

nature of the investigations and the need      Many investigations, however, cannot be

for higher-grade forensic tools as well as     discussed because of confidentiality con-

the concomitant expertise that is neces-       cerns, implications for other matters, or

sary to use them. This trend, as well as an    for security reasons.

increasing number of investigations and

actions likely to result from the signifi-

cant increase in USF audits recently con-              activity during
ducted, highlights the budgetary needs                       this period
for the $20.4 million and additional staff

positions referred to in this, and previous    Sixty-one (61) cases were pending from

reports.                                       the prior period. Thirty-one (31) of those

                                               cases involve the Commission’s Universal

In addition to the foregoing, the OIG          Service Fund (USF) program and have

continues to coordinate and provide as-        been referred to the Federal Bureau of In-

sistance to Federal civil and law enforce-     vestigation (FBI) and/or the Department

ment entities, as well as to state and local   of Justice. An additional nine (9) non-

authorities, with respect to investigations    USF and three (3) USF related complaints

pertaining to fraud in the Universal Ser-      were received during the current report-
                                                                       Investigations - September 2007   23
              investigations
                ing period. Over the last six months, six              Significant case
                (6) cases, one (1) USF and five (5) non-                  summaries
                USF related, have been closed. A total

                of sixty-seven (67) cases are pending, of     On September 14, 2007, a Federal jury in

                which thirty-three (33) relate to the USF     San Francisco, California, convicted Judy

                program. The OIG continues to monitor,        Green, a former sales representative and

                coordinate and/or support activities re-      school consultant, for her role in schemes

                garding those thirty-three (33) investiga-     to defraud the Federal E-Rate program.

                tions. The investigations pertaining to the    Ms. Green was convicted on all felony

                pending thirty-three (33) non-USF cases       charges in a 22-count indictment involv-

                are on-going.                                   ing fraud, collusion, aiding and abet-

                                                               ting, and conspiracy in connection with

                                                              E-Rate projects at schools in seven states

                                                               – Arkansas, California, Michigan, New
                                Statistics
                 Cases Pending as of                 61         York, Pennsylvania, South Carolina,
                 March 31, 2007                                and Wisconsin. This case was initiated
                 New Cases                           12
                                                               on December 8, 2005, when six compa-
                 Cases Closed                         6
                                                               nies and six individuals (including Ms.
                 Cases Pending as of September       67
                                                              Green) were charged with participating
                 30, 2007
                                                               in criminal schemes. The Department

                                                              of Justice alleged losses of between $100

                                                               and $200 million. Those charged were:



                                                              • Video Network Communications Inc.

                                                              (VNCI) - Portsmouth, New Hampshire

                                                              • Howe Electric Inc. - Fresno, California

                                                              • Sema4 Inc. - San Juan Capistrano, Cali-

                                                              fornia
24   Investigations - September 2007
                                                investigations
• Digital Connect Communications - San

Juan Capistrano, California                  In the E-Rate fraud case in McAllen, Tex-

• Expedition Networks, Ltd. - North Hills,   as, the sentencing hearing for Rafael G.

California                                   Adame, who was convicted in February of

• ADJ Consultants Inc. (ADJ) - Temecula,     this year on seven counts of wire fraud in

California                                   a scheme to defraud the E-rate program,

• Judy Green - Former Sales Representa-      is set for November 19, 2007. As stated

tive for VNCI and Co-Owner of ADJ            in the preceding Semi-Annual Report, Mr.

• Allan Green - Co-Owner of ADJ              Adame was convicted of submitting false

• George Marchelos - Former Sales Rep-       invoices for payment over a multi-year

resentative for VNCI                         period – monies intended to benefit the

• Steven Newton - Former Vice President      Weslaco Independent School District.

at Premio Computer Inc.

• Earl Nelson - Former Branch Manager

for Inter-Tel Technologies Inc.              During this period, the Assistant Inspec-

• William Holman - Former Vice Presi-        tor General for Investigations concluded

dent of Sales for NEC-BNS                    an inquiry into an allegation that a file

                                             containing non-confidential contract doc-

Expedition Networks, Ltd. pled guilty        uments relating to termination of telecom-

and was sentenced to a fine of $5 million.   munication services between the United

Allan Green, George Marchelos, Steven        States and the country of Haiti was miss-

Newton, Earl Nelson, and William Hol-        ing from the FCC’s Reference Information

man have pled guilty and are awaiting        Center and could not be located. This in-

sentencing. Charges against Howe Elec-       vestigation followed a February 12, 2007

tric Inc. are pending. VNCI, Sema4, Digi-    Opinion Column article in the Wall Street

tal Connect, and ADJ Communications          Journal (regarding two civil lawsuits) that

are defunct; charges against them have       suggested that the missing file might con-

been dropped.                                tain relevant evidence. The Office of the
                                                                    Investigations - September 2007   25
              investigations
                Chairman specifically requested that the

                Inspector General investigate the mat-          An inquiry requested by the Government

                ter. The result of this investigation led to    Accountability Office (“GAO”) into al-

                recommendations being made to the Of-           legations of waste, procurement impro-

                fice of Managing Director to enhance file-      priety, and telecommunications security

                room security procedures. During this           purportedly arising out of the purchase

                investigation, the missing file was recon-      of six items of telephone equipment and

                structed by the International Bureau and        communications services was conducted

                is now available in the FCC’s Public Refer-     by the OIG. The investigation uncovered

                ence room.                                      no evidence of fraud, waste, or abuse.

                                                                The matter was officially closed and GAO

                                                                was notified of the results of the investi-

                In May 2007, the Kansas City, Missouri          gation.

                School District (“KCMSD”) agreed to

                relinquish over $13.6 million in claims

                for Federal funds and to pay the United         In May 2007, two former Dallas Indepen-

                States $66,000 as a civil settlement relating   dent School District (“DISD”) officials

                to false claims and false statements in con-    were indicted for taking bribes from a

                nections with the FCC’s E-rate program          computer vendor whose company was

                from 2002 to 2006. The U.S. Department          awarded $39 million in technology con-

                of Justice contended that KCMSD pur-            tracts in 2002 and 2003. Indicted were Ru-

                sued claims for payments for a contract         ben Bohuchot, a former DISD associate

                that had been cancelled, did not comply         superintendent of technology; William

                with the mandatory competitive bidding          Coleman, a former DISD deputy superin-

                process, and improperly extended con-           tendent who later became interim super-

                tracts to avoid re-bidding.                     intendent of Detroit Public Schools; and

                                                                Frankie Wong, president of Micro System.

                                                                They were charged with bribery, conspir-
26   Investigations - September 2007
                                                  investigations
acy, and money laundering. According to        ing had been lost and consequently left

the indictment, they used shell companies      unconsidered by policy makers was con-

and phony invoices to siphon off millions      ducted by the Assistant Inspector General

of dollars in technology funding for their     for Investigations.   Subsequent thereto,

personal use. The trail is set to begin in     the OIG found that no systemic flaws ap-

March, 2008.                                   peared to exist in the FCC’s document in-

                                               take system.



During this period, the OIG concluded an

inquiry into whether resolution of a 2005      A Federal grand jury during August, 2007

formal complaint alleging violations of        indicted R. Clay Harris on charges of alleg-

the Telephone Consumer Protection Act          edly paying more than $230,000 in bribes

of 1991 was taking an unduly lengthy pe-       to a former Atlanta Public School (“APS”)

riod of time. The Assistant Inspector Gen-     official in exchange for favorable treat-

eral for Investigations was recused on the     ment on technology contracts. The indict-

matter. After further investigation, the In-   ment alleges that, starting in late 2001 and

spector General concluded that the matter      continuing until late 2002, Harris’ tech-

had necessitated complex determinations,       nology company, Multimedia Communi-

and had been addressed with reasonable         cations Services Corp., made payments to

diligence by Enforcement Bureau staff.         M&S Consulting, a business partnership

The Office of Inspector General will, how-     between Arthur Scott and his wife, Evelyn

ever, continue to monitor the process of       Myers Scott, that accounted for more than

the complaint until it is finally resolved.    70 percent of the money the couple solic-

                                               ited from technology vendors. The trial

                                               date has yet to be set by the court.

An inquiry into allegations that evidence

submitted to the FCC in support of a fil-


                                                                      Investigations - September 2007   27
              investigations

                In September 2007, Arthur Scott, the for-    The investigation the OIG initiated re-

                mer technology director at APS, was          garding allegations of inappropriate con-

                sentenced to serve 37 months in Federal      duct by individuals at the FCC, past and

                prison after pleading guilty earlier in      present, concerning the possible destruc-

                the year to bribery and fraud for taking     tion and/or suppression of draft studies

                $323,000 from vendors seeking preferen-      or reports regarding localism and media

                tial treatment. Scott’s wife, Evelyn Myers   ownership was completed soon after the

                Scott, who worked for her husband in the     reporting period for this report. That in-

                school system’s technology department,       vestigation will therefore be addressed in

                was sentenced to 24 months for her role      the next semi-annual report.

                in aiding the conspiracy. While at APS,

                Scott oversaw the district’s E-Rate pro-

                gram and accepted a series of bribes paid               OIG HOTLINE
                by vendors doing business with the At-

                lanta school district.                       During this reporting period, the OIG

                                                             Hotline technician received numerous

                                                             calls to the published hotline numbers

                During this period, the OIG continued an     of (202) 418-0473 and 1-888-863-2244 (toll

                investigation regarding consumer infor-      free). The OIG Hotline continues to be a

                mation and the complaint process within      vehicle by which Commission employ-

                the FCC, including the commencement of       ees and parties external to the FCC can

                two audits designed to explore and ana-      contact the OIG to speak with a trained

                lyze the process. These audits will sup-     Hotline technician. Callers who have gen-

                port the investigatory work which is on-     eral questions or concerns not specifically

                going.                                       related to the missions or functions of the

                                                             OIG office are referred to the FCC Con-

                                                             sumer Center at 1-888-225-5322. In addi-
28   Investigations - September 2007
                                                     investigations
tion, the OIG also refers calls that do not       responsibility of other FCC bureaus and

fall within its jurisdiction to other entities,   offices. During this reporting period, we

such as other FCC offices, Federal agen-          received 899 Hotline calls. Many of these

cies and local or state governments. Ex-          calls were forwarded to the FCC Con-

amples of calls referred to the Consumer          sumer Center (372 calls) and other FCC

Center or other FCC offices include com-          bureaus (46 calls). The balance of calls

plaints pertaining to customers’ phone            were referred to other Federal agencies,

service and local cable providers, long-          primarily the Federal Trade Commission

distance carrier slamming, interference,          (481 calls).

or similar matters within the program




                                  Hotline Calls Record
                         April 1, 2007 - September 30, 2007




                                                                    FCC Consumer Hotline
                                                                    Other FCC Bureaus
                                                                    Other Federal Agencies




                                                                        Investigations - September 2007   29
reporting requirements
         of the
 inspector general act
  reporting requirements of Section 5(a)

 table i: oig reports with questioned costs

table II: oig reports with recommendations
      that funds be put to better use
              reporting requirements
                This section summarizes the Office of Inspector General response to the 12 specific report-
                ing requirements set forth in Section 5(a) of the Inspector General Act of 1978, as amended.

                1. A description of significant problems, abuses, and deficiencies relating to the adminis-
                tration of programs and operations of such establishment disclosed by such activities dur-
                ing the reporting period.

                Please refer to the Section of this report titled “Universal Service Fund” on pages 16
                through 20 and the Section of this report captioned “Telecommunications Relay Service”
                on page 13.

                2. A description of the recommendations for corrective action made by the Office during
                the reporting period with respect to significant problems, abused, or deficiencies identified
                pursuant to paragraph (1).

                Please refer to the Section of this report titled “Universal Service Fund” on pages 16
                through 20 and the Section of this report captioned “Telecommunications Relay Service”
                on page 13.

                3. An identification of each significant recommendation described in previous semiannual
                reports on which corrective action has not yet been completed.

                No significant recommendations remain outstanding.

                4. A summary of matters referred to authorities, and the prosecutions and convictions
                which have resulted.

                Please refer to the Section of this report entitled “Universal Service Fund” on pages 16
                through 20 and “Investigations” on pages 21 through 29.

                5. A summary of each report made to the head of the establishment under section (6) (b) (2)
                during the reporting period.

                No report was made to the Chairman of the FCC under section (6) (b) (2) during this report-
                ing period.

                6. A listing, subdivided according to subject matter, of each audit report issued by the Of-
                fice during the reporting period, and for each audit report, where applicable, the total dol-
                lar value of questioned costs (including a separate category for the dollar value of unsup-
                ported costs) and the dollar value of recommendations that funds be put to better use.

                Each audit report issued during the reporting period is listed according to subject matter
                and described in the “Audit Areas” section and in Tables I and II of this report.

                7. A summary of each particularly significant report.

                Each significant audit and investigative report issued during the reporting period is sum-
                marized within the body section and in Tables I and II of this report.

                8. Statistical tables showing the total number of audit reports with questioned costs and

32   Reporting Requirements - September 2007
                      reporting requirements
the total dollar value of questioned costs.

The required statistical table can be found at Table I to this report.

9. Statistical tables showing the total number of audit reports with recommendations that
funds be put to better use and the total dollar value of such recommendations.

The required statistical table can be found at Table II to this report.

10. A summary of each audit report issued before the commencement of the reporting pe-
riod for which no management decision has been made by the end of the reporting period
(including the date and title of each such report), an explanation of the reasons why such
a management decision has not been made, and a statement concerning the desired time-
table for achieving a management decision on each such report.

No audit reports fall within this category.

11. A description and explanation of the reasons for any significant revised management
decision made during the reporting period.

No management decisions fall within this category.

12. Information concerning any significant management decision with which the Inspector
General is in disagreement.

No management decisions fall within this category.

13. Information described under section 05(b) of the Federal Financial Management Im-
provement Act of 1996.

No reports with this information have been issued during this reporting period.




                                                                Reporting Requirements - September 2007   33
              reporting requirements

                           Table I: OIG Reports With Questioned Costs
                         Inspector General                    Number of               Questioned             Unsupported
                         Reports With Questioned               Reports                  Costs                   Costs
                         Costs
                         A. For which no
                         management decision
                         has been made by the                        _                       _                       _
                         commencement of the
                         reporting period.

                         B. Which were issued
                         during the reporting                        41                $3,887,086                    _
                         period.

                         C. For which a
                         management decision
                                                                     4                 $3,887,086                    _
                         was made during the
                         reporting period.

                         (i) Dollar value of
                                                                     _                       _                       _
                         disallowed costs


                         (ii) Dollar value of costs
                                                                     _                       _                       _
                         not disallowed

                         D. For which no
                         management decision has
                                                                     _                       _                       _
                         been made by the end of
                         the reporting period.

                         Reports for which no
                         management decision
                         was made within six                         _                       _                       _
                         months of issuance.

                     1
                      One report was issued in draft, containing $570,458 in questioned costs. See page 18 for details.




34   Reporting Requirements - September 2007
                   reporting requirements

 Table II: OIG Reports With Recommendations
         That Funds Be Put To Better Use
Inspector General Reports        Number of
                                                Dollar Value
With Recommendations That         Reports
Funds Be Put To Better Use

A. For which no management
decision has been made by
                                     _                _
the commencement of the
reporting period.


B. Which were issued during
                                     _                _
the reporting period.


C. For which a management
decision was made during the         _                _
reporting period.


(i) Dollar value of disallowed
                                     _                _
costs


(ii) Dollar value of costs not
                                     _                _
disallowed


D. For which no management
decision has been made by the        _                _
end of the reporting period.

Reports for which no
management decision was
made within six months of            _                _
issuance.




                                             Reporting Requirements - September 2007   35
Report Fraud, Waste or Abuse to:

    Office of the Inspector General

 Federal Communications Commission




        EMAIL
   Hotline@FCC.gov

        CALL
Hotline: (202) 418-0473
          or
    (888) 863-2244

  www.FCC.gov/OIG




You are always welcome to write or visit.
     Office of the Inspector General

   Federal Communications Commission
            Portals II Building
     445 12th St., S.W. –Room #2-C762
Federal Communications Commission
   Office of the Inspector General




        445 12th St., SW
      Washington, DC 20554

        www.FCC.gov/OIG
